<html>
<title> - SURFACE TRANSPORTATION INFRASTRUCTURE PROJECTS: CASE STUDIES OF THE FEDERAL ENVIRONMENTAL REVIEW AND PERMITTING PROCESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  SURFACE TRANSPORTATION INFRASTRUCTURE PROJECTS: CASE STUDIES OF THE 
          FEDERAL ENVIRONMENTAL REVIEW AND PERMITTING PROCESS

=======================================================================

                                (113-81)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-706 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida

                                  (ii)

  

                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
HOWARD COBLE, North Carolina         Columbia
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 MICHAEL H. MICHAUD, Maine
SHELLEY MOORE CAPITO, West Virginia  GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            TIMOTHY J. WALZ, Minnesota
ERIC A. ``RICK'' CRAWFORD, Arkansas  STEVE COHEN, Tennessee
LOU BARLETTA, Pennsylvania           ALBIO SIRES, New Jersey
BLAKE FARENTHOLD, Texas              DONNA F. EDWARDS, Maryland
LARRY BUCSHON, Indiana               JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
STEVE SOUTHERLAND, II, Florida       DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin, Vice      SEAN PATRICK MALONEY, New York
Chair                                ELIZABETH H. ESTY, Connecticut
STEVE DAINES, Montana                LOIS FRANKEL, Florida
TOM RICE, South Carolina             CHERI BUSTOS, Illinois
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Carlos M. Braceras, P.E., executive director, Utah 
  Department of Transportation...................................     2
Hon. Lynn Peterson, secretary, Washington State Department of 
  Transportation.................................................     2
Carlos Swonke, director, Environmental Affairs Division, Texas 
  Department of Transportation...................................     2
Michael Kraman, acting chief executive officer, Transportation 
  Corridor Agencies..............................................     2

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Eleanor Holmes Norton, of the District of Columbia..........    33

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Carlos M. Braceras, P.E.....................................    37
Hon. Lynn Peterson...............................................    41
Carlos Swonke....................................................    49
Michael Kraman...................................................    53

                       SUBMISSION FOR THE RECORD

Lee G. Gibson, AICP, executive director, Regional Transportation 
  Commission of Washoe County, Nevada, written testimony.........    62

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
  SURFACE TRANSPORTATION INFRASTRUCTURE PROJECTS: CASE STUDIES OF THE 
          FEDERAL ENVIRONMENTAL REVIEW AND PERMITTING PROCESS

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order.
    Good morning. And welcome to this hearing before the 
Subcommittee on Highways and Transit.
    We spent the summer working on the surface transportation 
reauthorization bill and the HTF Act, which provides funding 
certainty and extends MAP-21 through the end of next May.
    However, as we continue working on the surface 
transportation reauthorization bill, it is important that we 
hear from practitioners and project sponsors in order to gain 
their wisdom and insight.
    Today's hearing focuses on the Federal environmental review 
and permitting processes for transportation projects. As 
project sponsors deliver Federal surface transportation 
projects, they must meet complex requirements at the Federal 
and State levels during every stage of the process. The 
environmental review and permitting processes are major 
components of project delivery.
    The Federal level, the National Environmental Policy Act of 
1969, or NEPA, provides a framework for environmental planning 
and decisionmaking.
    NEPA requires the consideration of potential impacts of a 
project on the social and natural environment and, if 
necessary, includes steps to limit or mitigate those impacts. 
NEPA also identifies any Federal environmental permits that the 
project must secure in order to proceed.
    While a necessary and important part of the project 
delivery process, the environmental review and permitting may 
involve significant time, money and staff resources, especially 
for complex projects. MAP-21 made significant reforms to the 
project delivery process which maintained our strong 
environmental protections while improving the efficiency and 
effectiveness of the process.
    I know that many of our witnesses today plan to discuss 
these reforms and how they have benefited from them. Staff 
informed me this morning that the U.S. Department of 
Transportation plans to publish a notice in the Federal 
Register tomorrow on the MAP-21 provision that links planning 
activities to the environmental review process. I welcome this 
effort and look forward to the continued implementation of all 
of the MAP-21 provisions.
    Yet, the complexity of this issue necessitates our 
continued examination of the environmental review and 
permitting process. As the committee continues its work on 
drafting the next surface transportation reauthorization bill, 
we want to consider how the process is working well and what 
ways it can work better.
    We have an excellent panel of witnesses before us today, 
and I am confident that they will be able to help us understand 
the important issues by discussing how the process has worked 
for specific projects in their State.
    And before I introduce--or I will introduce the witnesses.
    Our first witness is Carlos Braceras. He is executive 
director of the Utah Department of Transportation.
    Welcome, sir.
    And next we will hear from Lynn Peterson, secretary of the 
Washington State Department of Transportation, who is 
developing the Cascadia Project and a whole variety of other 
things out in the northwest part of the United States and 
southwest part of Canada.
    And we also have Carlos Swonke, who is director of the 
Environmental Affairs Division of the Texas Department of 
Transportation.
    Finally, we have Michael Kraman, acting CEO of the 
Transportation Corridor Agencies in southern California.
    I thank you for being here. I thank you and those in your 
organizations who worked on your testimony. And we invite you 
to summarize that as best you can in approximately 5 minutes.
    And my partner, Eleanor Holmes Norton, is on her way and we 
may interrupt when she arrives. I am sure she will have an 
opening statement.
    And we will begin with Mr. Braceras.

TESTIMONY OF HON. CARLOS M. BRACERAS, P.E., EXECUTIVE DIRECTOR, 
    UTAH DEPARTMENT OF TRANSPORTATION; HON. LYNN PETERSON, 
   SECRETARY, WASHINGTON STATE DEPARTMENT OF TRANSPORTATION; 
CARLOS SWONKE, DIRECTOR, ENVIRONMENTAL AFFAIRS DIVISION, TEXAS 
DEPARTMENT OF TRANSPORTATION; AND MICHAEL KRAMAN, ACTING CHIEF 
      EXECUTIVE OFFICER, TRANSPORTATION CORRIDOR AGENCIES

    Mr. Braceras. Thank you very much. Good morning.
    Mr. Petri. Turn your microphone on.
    Mr. Braceras. Thank you. And good morning.
    Chairman Petri, Ranking Member Norton and members of the 
subcommittee, thank you for the opportunity to provide input on 
the Federal environmental review and permitting process.
    My name is Carlos Braceras. I am the executive director of 
the Utah Department of Transportation. As a registered 
professional engineer and a geologist, I have been with the 
Utah DOT since 1986, including service as the deputy director, 
chief geotechnical engineer and chief value engineer.
    I also served as the team leader through the environmental 
review and permitting process for the Legacy Parkway Project, a 
new freeway north of Salt Lake City that created a shared 
solution that addressed multimodal transportation, community 
and environmental needs. In addition, I am currently chair of 
the AASHTO Center for Environmental Excellence.
    For more than 15 years, the Utah DOT has actively 
institutionalized context-sensitive solutions in all phases of 
our work. As the executive director, I have established 
integrated transportation as a Department emphasis area to 
ensure we provide Utahns with balanced transportation options 
by actively considering how best to meet the transportation 
needs of transit users, bicyclists, pedestrians, in addition to 
automobile users and freight shippers.
    At the Utah DOT, all aspects of decisionmaking are driven 
by a set of strategic goals and strong performance management. 
We know this approach yields better outcomes for the public's 
investment. We were pleased that, as part of MAP-21, Congress 
embraced the Federal transition to a performance- and outcome-
based program.
    To meet the Nation's transportation goals, we need to 
remove the obstacles that inhibit our ability to deliver 
projects that achieve these goals, including obstacles to 
project delivery.
    While the Utah DOT continues to assertively innovate and 
streamline project delivery, we do not seek to truncate 
environmental review. We need to stop thinking of NEPA as an 
inconvenient process to get through, but think of it as a 
decision tool that brings interested citizens to actively 
participate in the process. A properly administered process 
yields better results.
    However, too often the silo mentality interferes with that 
process. Each agency has its own goals and missions which 
fosters exclusive focus on that agency's goals. Instead, 
Federal agencies need to understand and support their sister 
agency missions and goals. We can meet the Corps of Engineers' 
goal to protect the environment while still meeting the Federal 
Highway Administration's goal to improve mobility.
    The Provo Westside Connector Project in Utah was, in my 
view, a victim of silo mentality. The project provides a new 
direct link to the Provo Airport and supports local land use 
planning. However, the project became stuck in the permitting 
and environmental review process.
    Eventually, the project was selected by the White House as 
one of the 14 projects included in the Federal Infrastructure 
Projects Permitting Dashboard. While a need for increased 
coordination is often cited as the reason for inclusion on the 
Dashboard, in reality, a fundamental disagreement with Federal 
resource agencies on the need for the project was the cause for 
the impasse.
    Resource agencies were dug in, protecting agency goals. The 
Dashboard process provided the link needed to nudge 
participants to find a solution. But it did come with a price: 
A permitting requirement for increased mitigation associated 
with indirect impacts and an unfortunate erosion of 
relationships with local regulatory agencies.
    Despite that price, the larger goal with the Dashboard was 
achieved. The project secured the needed permits and 
environmental clearances and proceeded to construction funded 
primarily with State dollars.
    The success of our Nation is measured when progress is made 
towards all agency goals, not just individual agency goals. 
When that expectation becomes the norm, I am confident we will 
see better outcomes for transportation, communities and the 
environment.
    The Dashboard process provided a framework for agencies to 
find a systemic solution that met a variety of agency goals, 
enabling the project to move forward. I encourage the 
subcommittee to ensure we continue making progress towards our 
Nation's transportation goals, including more efficient project 
delivery.
    Thank you.
    Mr. Petri. Thank you.
    Secretary Peterson.
    Ms. Peterson. Good morning. Thank you, Chairman Petri, and 
thank you, Ranking Member Norton, for inviting me to 
participate in this morning's meeting.
    I came to WSDOT about 18 months ago with a diverse 
transportation experience, having now worked at two State DOTs, 
for an MPO, a transit agency in the private sector and as a 
local city- and county-elected official.
    I have three points to make today.
    One, NEPA is not broken. Small changes to NEPA have been 
extremely helpful, but the single most important thing to take 
away today is that NEPA is not broken. It allows us to get 
better outcomes by looking at all potential solutions in an 
open, public arena.
    Washington State legislative audits have revealed that NEPA 
and our State equivalent, SEPA, are not the most common project 
factors for delay. A January 2014 State legislative report, in 
fact, found that environmental review increases public 
acceptance and leads to improved efficiency in overall project 
design and is not a significant driver of project cost.
    Two, NEPA allows for complex conversations in a complex 
world. All DOTs are weaving our way around and through complex 
urban and rural environments. Each specific context has a 
unique problem and needs unique solutions. There is no way 
around having these difficult conversations, and best practices 
for planning techniques used by different States should be 
shared so that all of the NEPA conversations that we have are 
well worth everyone's time and resources.
    When we look further into these complex problems, they are 
usually not fully defined prior to starting NEPA. And the 
necessary consensus building does take time. NEPA requires a 
commitment to real collaboration.
    States should be held accountable to conducting their 
business and making decisions that benefit a diverse set of 
users and markets, which means we have a responsibility to make 
sure that all voices are heard as we go through these very 
complex decisionmaking processes. And the design should reflect 
those who are in the room and those who are not in the room in 
the end.
    Other techniques applied prior to NEPA can help, including 
alternative analysis using multimodal scenario planning, 
including land use and transportation system level of analysis; 
least-cost planning, similar to what the utilities have used; 
and practical design.
    Using these approaches, WSDOT has engaged local 
stakeholders at the earliest stages to ensure their input is 
included at the right stage of the design. It also focuses our 
efforts on more cost-effective solutions.
    Lastly, FHWA has really made good changes to be able to 
allow for flexibility. Please keep in mind that the vast 
majority of WSDOT's work--94 percent, in fact--is excluded from 
NEPA through categorical exclusions. Only 2 or 3 percent of our 
projects require an environmental impact statement.
    We have had programmatic agreements in place since the 
1990s that allow WSDOT to sign off in very simple categorical 
exclusions on behalf of FHWA. We appreciate the expanded list 
of activities for programmatic agreements that Congress 
authorized in MAP-21.
    In February of last year, WSDOT and FHWA signed an updated 
agreement and we became one of the first States to be able to 
comply completely with the MAP-21 requirements. With this 
insight, we hope to find quick improvements we can do today 
while establishing clear purposes and need and alternatives for 
NEPA analysis.
    In conclusion, I would be remiss if I didn't take this 
opportunity to thank you for your recent efforts to pass a 
short-term patch for the Highway Trust Fund. We encourage you 
to act before the May 2015 deadline to provide stable funding, 
and we believe that there is a Federal role in transportation 
funding in the future.
    Thank you for the opportunity to share Washington's 
experience with the Federal environmental review process.
    Mr. Petri. Thank you.
    Director Swonke.
    Mr. Swonke. Thank you. And good morning. Again, my name is 
Carlos Swonke. I am director of TXDOT's Environmental Affairs 
Division.
    The Texas Department of Transportation appreciates the 
opportunity to provide testimony to the subcommittee meeting 
here today and to share our experiences with the Federal 
environmental review and permitting process.
    To begin with, TXDOT would like to thank the committee and 
staff for its work on MAP-21. Since its passage, TXDOT has 
worked diligently to implement many of the streamlining 
provisions of MAP-21 and looks forward to the provisions still 
undergoing rulemaking by FHWA.
    Streamlining opportunities, even small ones, can have far-
reaching benefits to TXDOT. As you can imagine, TXDOT's 
environmental program is a large one. Total dollar amount of 
construction projects that TXDOT awarded last year approached 
$6 billion.
    Another measure of the program volume is the number of 
TXDOT actions that underwent environmental review and approval. 
Last year, there were 1,796 environmental approvals for TXDOT 
projects. To put that in perspective, the Bureau of Land 
Management nationwide had 1,091 NEPA approvals last year.
    Of the TXDOT environmental approvals, 98 percent were with 
categorical exclusion determinations. As I am sure you are 
aware, the categorical exclusion is the NEPA tool intended to 
provide expedited review and approval for minor routine 
projects.
    The benefits of the categorical exclusion have not always 
materialized for TXDOT. Up until recently, a certain number of 
TXDOT categorical exclusions--about 40 to 60 a year--were 
prepared as documents that would include a full NEPA analysis. 
These documents could reach a length of 100 pages or more. Of 
particular concern was that it would take, on average, over a 
year to get these documents reviewed and approved.
    We have since addressed this issue with meaningful results, 
and it is here where I would like to jump to our implementation 
of the MAP-21 streamlining provisions.
    Although it was conceived in earlier legislation, the 
provision in MAP-21 relating to States assuming the 
responsibility of categorical exclusion determinations prompted 
TXDOT to pursue this opportunity. TXDOT received this authority 
last December. Having responsibility for categorical exclusions 
allows TXDOT to not only expedite the decisionmaking, but also 
retool our program.
    In this transition, we have realized efficiencies in two 
areas.
    First, TXDOT eliminated categorical exclusion documents 
that looked like a full NEPA analysis by going to checklists. 
Today we no longer produce 100-plus-page categorical exclusion 
documents and, instead, have a 2-page checklist, sometimes 
supplemented by technical reports. Our review time for these 
documents has been reduced from over a year to less than 45 
days.
    The second efficiency has been by eliminating the Federal 
review of the categorical exclusions because TXDOT now has this 
authority. One measure of this efficiency is that we have saved 
a minimum of 30 days of certain types of reviews--CE reviews.
    Here is an example of the savings: About 1,000 projects on 
the TXDOT 4-year plan are a type of categorical exclusion that 
would have had 30 days of minimum review by FHWA. Doing the 
math here, this would have amounted to 82 years of cumulative 
waiting time. Today, under NEPA assignment for CEs, TXDOT is 
now required to wait the minimum 30 days.
    Another streamlining provision of MAP-21 being utilized by 
TXDOT is the new categorical exclusion for projects within the 
operational right-of-way. Since this new categorical exclusion 
was issued through rulemaking earlier this year, TXDOT has used 
it on 627 project approvals. It has been a timesaver and a 
moneysaver.
    Here is an example: A few years ago, there was a project in 
Houston to widen an existing four-lane road to a six-lane road. 
No additional right-of-way was needed for the widening. At the 
time, a full NEPA analysis was needed and an environmental 
assessment was prepared. There were no unusual circumstances 
about the project. There was no public opposition to the 
project.
    The environmental assessment took 3 years for review and 
approval. The cost to prepare the environmental assessment was 
$100,000, and that was borne by the city of Houston. Today that 
project could be approved with a categorical exclusion in a 
fraction of that time and at a fraction of that cost.
    TXDOT is currently pursuing full NEPA assignment beyond 
categorical exclusions, to include environmental assessments 
and environmental impact statements. We have spent a year 
preparing our program for the responsibility and preparing the 
required application to FHWA. We submitted the application this 
past April. It was approved.
    Now we are working on the required memorandum of 
understanding between TXDOT and FHWA. We began negotiating this 
MOU at the end of last year. The status of the MOU today is 
that we are still in discussion on two remaining points of 
contention, but as of late yesterday, we have gotten positive 
news on these issues. It is possible that we may be able to 
work out these issues in the next few days.
    Beyond NEPA, we still run into delays related to other 
regulatory procedures. Among these issues, there are the Clean 
Water Act, Endangered Species Act, Clean Air Act, and 
environmental justice issues. We understand that sometimes 
projects are just complicated, but the added procedures of 
other regulations can require substantial time and effort to 
meet compliance requirements.
    I would like to conclude by saying that TXDOT is very 
appreciative of the NEPA tools that have been provided by 
Congress, FHWA, and the Council on Environmental Quality. These 
tools, combined with proper planning, good judgment and 
sufficient resources, will allow us to be more effective as we 
guide our projects through the environmental review process.
    Thank you. And I look forward to answering any questions.
    Mr. Petri. Thank you.
    Mr. Kraman.
    Mr. Kraman. Good morning, Mr. Chairman, members of the 
committee. Again, my name is Mike Kraman, acting chief 
executive officer of the Transportation Corridor Agencies.
    In 1986, the California State Legislature formed the TCA as 
a joint powers authority to plan, design, finance and construct 
a toll road network as part of the State highway system in 
Orange County, California.
    Construction of these roads is being accomplished without 
the use of taxpayer dollars. TCA collects tolls for the purpose 
of repaying the bonds issued to finance the roads. With more 
than 250,000 customers per day, the toll roads generate over 
$220 million in annual toll revenue.
    Additionally, TCA has investigated nearly $225 million in 
environmental programs to restore and preserve over 2,000 acres 
of open-space habitat.
    Now fast-forward to where we are today. We successfully 
constructed 51 miles during our initial 12 years, but we have 
spent the last 20 years trying to complete the final 16 miles.
    During this period, TCA embraced policies introduced under 
ISTEA and TEA-21, including the major investment study process 
and the NEPA/404 collaborative process.
    The need to complete the toll road network was reaffirmed 
in the South Orange County major investment study.
    For the project's NEPA process, TCA formed a NEPA/404 
collaborative. The collaborative brought together State and 
Federal agencies to address issues regarding environmental 
impacts in a coordinated fashion. The collaborative spent 
nearly 10 years reviewing alternatives and unanimously agreed 
on a preferred alternative.
    The next step was for TCA to obtain a consistency 
determination under the Coastal Zone Management Act. When TCA 
applied for this consistency determination, project opponents 
objected to the project.
    At this first hint of controversy, Federal agency members 
of the collaborative, with the exception of the Federal Highway 
Administration, abandoned the unanimous selection of the 
project's preferred alternative, asserting the need for 
additional environmental studies.
    The Corps of Engineers, EPA, National Marine Fisheries and 
Fish and Wildlife all submitted comments that criticized the 
preferred alternative previously agreed to by these same 
agencies.
    The California Coastal Commission sided with project 
opponents and denied TCA's request for consistency 
determination. U.S. Department of Commerce affirmed the 
decision. At that point, TCA reevaluated options for the road.
    After 3 years of public outreach, TCA proceeded with a 
shorter 5.5-mile project that is wholly outside of the coastal 
zone, but still serves a critical role in providing congestion 
relief.
    Despite the fact that this project, which we call the 
Tesoro Extension, has negligible impacts, Federal and State 
agencies are delaying their approvals because of pressure from 
the same group of opponents who objected to the original 
project.
    As an example, to comply with section 7 of the Endangered 
Species Act, Fish and Wildlife was tasked with completing a 
biological opinion. Since they had issued an opinion for the 
original project, they should have been able to prepare a new 
opinion within the 135-day regulated timeframe.
    In December 2012, the Federal Highway Administration 
initiated formal consultation with Fish and Wildlife. In 2013, 
the draft opinion was circulated for internal review. TCA was 
then notified by Fish and Wildlife that they did not have 
sufficient staff resources to continue their work. TCA agreed 
to fund $75,000 for staff in order to restart the work.
    In 2014, well beyond the 135 days, Fish and Wildlife 
notified the Federal Highway Administration that, due to 
project opposition, it would not issue the opinion unless the 
Federal Highway Administration confirmed in writing that the 
project had independent utility. This setback is yet another 
example of subjectivity impacting the process, since this is 
not required to issue a biological opinion.
    In conclusion, I would like to highlight a few key 
recommendations for improving the environmental review and 
permit approval processes:
    First, allow projects in States with stringent 
environmental review laws, such as California, to meet Federal 
environmental review requirements through compliance with State 
laws.
    Second, require that all Federal agencies responsible for 
funding, permitting or approving a project collaborate on, 
adopt and use a single NEPA process. The process should be 
integrated and occur in a coordinated parallel workflow.
    Third, prohibit an agency from changing its position 
without the discovery of critical new information.
    Fourth, limit resource agency comments to issues within the 
jurisdiction and expertise of that agency.
    And, finally, speed up and enforce strict deadlines for the 
NEPA review and permit approval process.
    Thank you for the opportunity.
    Mr. Petri. Thank you.
    Chairman Shuster.
    Mr. Shuster. Well, thank you, Mr. Chairman.
    And thank our witnesses for being here.
    I want to take a point of personal privilege. I became 
aware that this most likely will be Chairman Petri's last 
hearing, since he has decided to retire from Congress, and I 
just wanted to take this opportunity to thank him for his 36 
years of service in the United States Congress.
    He has had quite a distinguished career, starting off in 
the Wisconsin State Senate, doing a stint at the Peace Corps 
and the USAID. So he has really served the Nation in a number 
of ways.
    But on this committee, where he served ably for 36 years, 
he has been in a leadership role in almost every subcommittee. 
I think railroads is the only one you haven't--economic 
development, building public works.
    He was in a leadership role, water resources, this 
committee a number of times. He helped shepherd through TEA-21 
and SAFETEA-LU as the chairman of this subcommittee. He was 
chairman of the Subcommittee on Aviation when we did the 
reauthorization in 2012. So, again, he has served the people of 
the Sixth District very well, Wisconsin, served the Nation.
    We thank you for that service and thank you for a job well 
done, although I do have one question. And my family history--
as most people know, I have been around here--not in Congress, 
but I have been around this building for a while. I have known 
him for over 30 years, and I have never asked anybody the 
question.
    Why do they call you ``Tim''? How did you get the nickname 
``Tim''?
    Mr. Petri. Well, I am a ``junior,'' and they sat around and 
decided they were going to call me ``Junior'' or ``Buddy'' or 
``Tom II'' or this or that. Finally, my grandmother said I was 
very small, like Tiny Tim. So they called me----
    Mr. Shuster. OK. Well, finally--after 30-some years, I 
finally know the answer to that. My father called you ``Tim'' 
and I never--I kept saying--``His name is Tom,'' I kept 
thinking to myself. But, you know, I don't know.
    But, again, I just want to take this opportunity again to 
thank you, congratulate you. We wish you well in whatever your 
endeavor is. You have really been one of the great leaders in 
Transportation and certainly someone that I have looked to for 
advice over the years. So thanks for a job well done.
    Mr. Petri. Thank you.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, I have never called you ``Tim.'' 
I called you ``Tom.'' And I really appreciated the opportunity 
to call you ``Mr. Chairman.''
    When I learned that Tom Petri was going to leave us, I 
could only think what a sad day for this subcommittee and 
committee, what a sad day for Wisconsin. And, surely, it is a 
sad day for the Congress of the United States.
    In Tom Petri, we have a Member who has a fountain of 
knowledge that takes many years to accumulate. And with that 
knowledge, Chairman Petri has accumulated great wisdom, wisdom 
about the many varied modes of transportation and 
infrastructure in our committee, wisdom which is not easily 
replaced. It is not just somebody else moves up and, therefore, 
you will just fill in. It is knowledge and wisdom and a great 
model of stability and collegiality that this Congress needs.
    When you put all of that together, Mr. Chairman, I can only 
say: Why in the world did you do that to us? We will miss all 
that you have offered us. We will look to you, I know, as we 
continue down this road. I have enjoyed working with you not 
only in my role as ranking member, I have enjoyed working with 
you as a man, as a human being.
    I worked with Chairman Petri, who told me about his work 
with British parliamentarians and asked me if I would like to 
join him, and I did. It was a wonderful experience. I remember 
we went through--to Great Britain and everybody went except Tom 
Petri because he had something he had to do in his district. 
That is just like Chairman Petri.
    So, Chairman Petri, if I could just speak from this side of 
the aisle, I hope you understand, as you leave the Congress, 
you are going with the deepest respect and admiration not only 
from your own side, but especially from this side of the aisle. 
Thank you very much.
    Mr. Petri. Thank you.
    And let's return to regular order. That is a little 
embarrassing. And you exceeded your 5 minutes. I didn't have 
the heart to interrupt.
    I have a couple questions for the panel, and some of you 
have touched on this in your testimony. And we were wrestling 
with this idea of interagency coordination. And it works--if 
everyone wants to cooperate, the objectives can be met and the 
thing can be telescoped and it works great. And if it is not a 
top priority, there can be lots of problems and delays for a 
variety of different reasons.
    And so we are trying to wrestle with figuring out how to do 
incentives or reasonable ways of avoiding unnecessary abuse of 
the process, basically, making it more efficient for everyone.
    So I am curious to know if--and we have seen examples of 
huge projects done very quickly because there was a public 
focus on it. The Olympics in Utah were a mess, and people came 
in and focused on it and rescued the situation. We had the 
earthquakes in Los Angeles. Things had to be fixed up and 
people got together and went through the process and met the 
public's need.
    But most projects don't have that level of public focus, 
and the result ends up being an opportunity for people who have 
other agendas to use the process to delay things.
    And it is frustrating because we want to be good stewards 
of the environment and recognize legitimate--raise legitimate 
concerns. But to have that sort of abuse of the process is an 
impediment to achieving those good objectives and raises a lot 
of objections to legislation that does try to do that.
    So I was curious if you could tell us what--the top two or 
three policy priorities that you have for the reauthorization 
bill and how we could improve the Federal environmental review 
or permitting process.
    I know some of you touched on this in your testimony 
already, but if you would just repeat the top things that we 
should be focusing on as we draft this legislation with our 
colleagues in the Senate, we would much appreciate it, starting 
with Mr. Braceras.
    Mr. Braceras. Thank you, Mr. Chairman.
    From a policy perspective regarding the reauthorization, 
there is the components that I think we are talking about here 
today in this committee regarding the environmental process and 
how to move that forward in a way to get better outcomes.
    And I think everyone--all my partners and CEOs of the DOTs 
all want to see outcomes that both benefit the transportation 
system, but also benefit the environment and the community. 
These are our homes. These are the communities that we live in. 
And we can find a way to get to yes.
    When we look at the Federal agencies, I think sometimes it 
is easy to criticize the Federal agencies if they are not going 
along with the way we want them to go along.
    When I look at the Federal agencies--I used the term 
``silos.'' I think it may be more appropriate to use the term 
``cylinders of excellence.'' They are all excellent agencies 
with people trying to do the right thing, but they are very 
focused on trying to achieve their mission.
    And there is very little recognition or reward given to 
those agencies if they step out a little bit and try to help 
another sister agency to be successful. It is almost a demerit 
against that agency.
    I believe there are as many ways within the rules, 
regulations and the spirit of what Congress has intended for 
Federal agencies to find a way to say yes as there is to say 
no. It is sometimes more difficult to say yes because you have 
to go out and extend yourself.
    If you find Federal agencies working in a way that is 
cooperative, trying to help another agency be successful, it is 
almost like they have to defend themselves within their agency. 
Even though other resource agencies are environmental peers.
    So I would suggest that Congress look for ways to provide 
not only motivation and accountability to these agencies, not 
just ask ``How are you doing with your mission?'', also ask, 
``What are you doing to help the other agencies be 
successful?'' and see what comes out of that type of 
accountability. I believe there are very good opportunities 
here for us to improve the environment.
    And when I use the word ``mitigate,'' I am not necessarily 
saying let's try to make the mitigation equal the impacts. 
Let's try to do the right thing by the environment. Let's try 
to do the right thing by our communities and to try to help 
move transportation forward. The economy of this country is 
dependent on a well-functioning Federal Government and a well-
functioning transportation system.
    So provide incentives that help Federal agencies work with 
other agencies to help them be successful. And I think, if we 
can bring to the attention of communities and Congress, what 
agencies are doing to help other agencies be successful, it 
would be a step in the right direction, Mr. Chairman.
    Mr. Petri. Secretary Peterson.
    Ms. Peterson. Well, thank you, Chairman. Born in the Sixth 
District of Wisconsin, I appreciate your leadership as well.
    The Skagit Bridge collapsed after it was struck by a truck 
about a year and a half ago, 6 weeks after I joined WSDOT. That 
would be a good example of the MAP-21 provisions that allowed 
for the emergency categorical exclusions. And so that really 
worked well.
    But to your specific question on what could be done 
differently, we have a good example within the State of 
Washington on the Point Defiance Bypass. It is a rail bypass 
project where we had received Federal--FHWA money to begin the 
project. FHWA required us to complete a Documented CE for our 
environmental review process work.
    And when we got the Federal Rail Administration money a 
couple years later, FRA required us to complete new 
environmental work and required an environmental assessment, 
even though FHWA had already approved the Documented CE for the 
exact same project.
    So it would be nice if a one DOT approach would be 
followed, that if you already have a categorical exclusion or 
an approval, that another modal administration within USDOT 
could accept that environmental work for the same project. So 
that would be my first thing.
    The second one would be, to follow on the comments, the 
type of training for those at the local level in the regions on 
how to work within and out of those silos.
    You know, one of the things I learned when I went from 
engineering into planning is that we have multiple vague and 
conflicting goals that we all have to work within.
    And being allowed the flexibility within the workplace of 
these agencies to do problem solving alongside is probably 
something--that kind of conversation and that value needs to be 
imposed on this process so that we are not working at odds on 
our missions of excellence, but we are actually working to come 
to compromise on those multiple vague and conflicting goals.
    Mr. Petri. Mr. Swonke.
    Mr. Swonke. Thank you.
    First off, I wanted to echo the sentiments that my peers 
have said. I think those are good suggestions. And something 
that--was mentioned earlier about the NEPA process working. And 
so I think the tools available to us today with the NEPA 
process allows us to do some pretty substantial things.
    It takes a lot of other commitments and a lot of things to 
come together and a lot of people to pull in the right 
direction, but the tools we do have today are able to allow us 
to do our work fairly well.
    But looking forward, I think there are some areas where we 
can make improvements. And one of the things--one of the issues 
came up in MAP-21, and that is combining the planning and NEPA 
processes together and get some advantages out of the planning 
process.
    I think MAP-21 took a good cut at that, but it did leave us 
with--I think it is about ten conditions that need to be met 
before some planning decisions can be brought forward into the 
NEPA process. That is not exactly a facilitation step.
    I think the idea that we should have more flexibility in 
bringing forward planning decisions and to allow those to 
account for NEPA decisions or some part of NEPA process moving 
forward would be extremely advantageous.
    In our case in Texas, we have got a few congested corridors 
today that we are performing planning studies on, and we see 
some opportunities there to--when we get to the NEPA step of 
those corridors, that we could and should be able to use some 
of those planning decisions in the NEPA process to help 
facilitate the review and approval of the NEPA documents when 
we get to that step.
    Another issue that comes up fairly often is mitigation. And 
MAP-21 spoke towards programmatic mitigation. That is certainly 
great in concept, but getting it to the ground--getting it on 
the ground and having agencies make efforts in that area, 
providing incentives to go forward on that--and I am talking 
about mitigation in all areas. We are talking about Clean Water 
Act mitigation, Endangered Species Act mitigation, even 
environmental justice mitigation right now.
    We have got a project right now that is going on where we 
are really trying to find out where the threshold is for 
mitigating for environmental justice impacts and how far do you 
have to go. It is really--there is no good indication about 
when we have done enough on that subject.
    And I don't know how programmatic applies to environmental 
justice, but programmatic can certainly help us with Clean 
Water Act 404 issues. We spend quite a bit of time and money on 
wetland mitigation, stream impact mitigation, and it consumes a 
lot of our resources.
    And, thirdly, conformity, Clean Air Act, in general. There 
are a lot of aspects to the Clean Air Act that are affecting 
transportation projects these days, and it seems to be 
happening more and more.
    One in particular that I think we would suggest looking 
into further would be the effectiveness of regional conformity. 
Is that really working towards cleaning up air quality? How 
effective is regional conformity?
    Because, again, we spend a lot of effort and time in 
particular that, if we get changes later on in the project that 
has already been through conformity, we have to go back to 
conformity. It is getting to be a pretty constant aspect of our 
work. Is it in conformity? Was it approved in conformity? Has 
it changed since conformity was made? And having to go back and 
revisit that issue.
    So those are our three items that we would suggest.
    Mr. Petri. Mr. Kraman.
    Mr. Kraman. Thank you.
    We certainly support the goals of the NEPA process, but it 
is too easy to take the process in different agency directions. 
There needs to be protection to the project sponsor in 
following the lead agency process, and the process should be 
integrated.
    And when we are talking about the EIS document and the 
permitting, it should be a single process that is integrated 
and in a parallel workflow, not starting all over again each 
time you are dealing with a different agency.
    The other part would be to limit the resource agency 
comments and involvement to the issues that are within the 
jurisdiction and expertise of that agency.
    Thank you.
    Mr. Petri. Thank you. To the point and specific. Thank you. 
Appreciate your comments.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I have reason, given a recent experience, to particularly 
value the public participation aspect of the NEPA process. The 
CSX railroad is engaged in work in my district involving a 
tunnel along Virginia Avenue.
    Now, this project was very controversial, in large part 
because it runs through not only a residential neighborhood, 
but a brand-new residential neighborhood.
    Now, there may be other jurisdictions like my own who 
reclaimed parts of their city that used to be for railroads or 
for industrial uses. This meant that the NEPA process and all 
that it entailed was important to my constituents.
    Now, the prevailing wisdom is that the reason for the 
length of these projects is frivolous lawsuits and the like, 
but the Congressional Research Service has found that more 
often the delays come precisely because of the reason the 
delays are coming in my own district, because of local or State 
or project-specific factors.
    For example, in my own case, when my communities came and 
asked for delays, I recognized that that would have an effect 
on the project, but I really didn't think--especially when the 
proposed record came out, and it was very thick--that I could 
say they didn't need more time. They were very assiduous, very 
well educated in going at it. So I asked for an extension. I 
asked for 90 days. I think I was given 60. I asked for another 
public meeting.
    Now, you know, the constituents may lose their struggle, 
but I hardly think--the process would be better if they hadn't 
had that opportunity. It would have been quicker. We would have 
saved a little money, a little time. This is the reason for 
most of these delays. I have just experienced them.
    Less than 1 percent of the projects have been subject, 
according to the CRS, to litigation. So we ought to face who 
you are talking about. You are talking about your own 
constituents. You are talking about your own local and State 
governments. They are holding things up, they think, for good 
reasons.
    That is why I have a question for Mr. Swonke. He speaks 
about the environmental process in the State of Texas and the 
reduction from a 100-page document to a 2-page document. 
Actually, that intrigues me. And if it works, I am very much 
for it.
    If you are for an environmental process that has meaning 
and you think that the American people are better off for an 
environmental process, you want to take all the encumbrances 
that people object to out of it and just get down to the raw 
meat.
    But, Mr. Swonke, has your public participation process in 
the project been reduced also by 98 percent? This reduction 
from a 100-page document to 2 pages, I can understand that in 
pages. But what about the public participation? The public is 
going to have to live with the highway or the aftermath of the 
particular project.
    Mr. Swonke. Yes, ma'am. Thank you for allowing me to 
clarify that.
    Definitely not. The public participation process and our 
public participation obligations are the same for before and 
after that transition of how we document our decision.
    And so the times when we go out for a public meeting and 
times we reach out to stakeholders, the occasions through the 
process when we have had those discussions with the locals, it 
is still the same. And so the idea that we have whittled down 
our documentation did not affect the amount and the frequency 
at which we reach out to the public.
    And, also, again, just to clarify as well that it also did 
not affect or does not affect the other regulatory standards 
that we have to meet as well.
    It is just that the NEPA documentation does not have to go 
into depth on all of the statutory requirements that are 
necessary, just the only ones that are in effect on this 
particular project, so we can focus our attention on to the 
important issues.
    But definitely, to go back to your question, no, the public 
participation process was not reduced in that transition.
    Ms. Norton. And I do not think you can find any State or 
local official that is not going to stand with his constituents 
in making sure there is a robust public process, and we have to 
understand that is where the delay is.
    One more question. You raised an issue regarding the 
involvement of DOJ and the Federal Highway Administration 
because of your delegation.
    Now, I think it is important to note that, in delegating to 
a State, essentially, you become the proxy for the Federal 
Government. It is not as if, you know, it is all yours and 
there is no more Federal jurisdiction.
    But you seem to object to the Federal Government being 
involved, in the case of DOJ, in the settlement--in 
determinations whether to settle a lawsuit or to appeal an 
adverse judgment. You seem to imply that that ought to be left 
solely to the State of Texas and not to DOJ.
    Does your MOU, which assigns responsibility for categorical 
exclusion and determinations, contain similar provisions 
regarding settlements and appeals? Are settlements and appeals 
taken out of what your responsibilities are?
    Mr. Swonke. On that particular issue, I don't recall. But I 
have got someone behind me I could ask quickly for a yes or no, 
if that is OK.
    Ms. Norton. Well, I just want to make sure that you don't 
regard Texas as being treated any differently from any other 
jurisdiction or, for that matter, any other Federal agency. A 
Federal agency, if it wants to appeal--and it may feel 
strongly--it has to go to DOJ. DOJ makes that determination for 
the Federal Government.
    And I would think that the same thing would be understood 
by the State of Texas, that, essentially, all the Federal 
Government has done is to say, ``We are essentially allowing 
you to be our proxy. We are delegating to you. But we delegate 
to you responsibilities and we also delegate to you all the 
rules that encumber us who are the Federal agency.''
    Do you understand that as well, Mr. Swonke?
    Mr. Swonke. Yes, ma'am. The idea that we are working on the 
MOU for the full assignment, the full delegation, is that, in 
the program, the way it is being set up, that the Federal 
Highway Administration has the ability to intervene at any time 
on any of the cases so that, if they feel like--if we are going 
in the wrong direction, they have the ability to take over and 
be the lead. And so that--that is, I think, the safety valve 
that we are looking at that covers your concern, covers the 
concern of DOJ and Federal Highway Administration.
    And so they are allowed to intervene at any time and to 
take over the case, and we are fine with that. It is just those 
times when they don't intervene, if they choose not to 
intervene on the case. Then we feel like, well, that gives us 
the ability that we are in charge of our own decisionmaking at 
that point if they do not intervene.
    So those are the time cycles. If you don't intervene, then 
we should be allowed to move forward. When you do intervene, it 
is all on the DOJ or Federal Highway Administration.
    Ms. Norton. Now, Mr. Swonke, they will know when to 
intervene. So be assured of that.
    Thank you very much, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And in response to what--Ms. Holmes Norton, I wanted to add 
just a little piece.
    When I was first elected to Congress in 2010, I represented 
from Brownsville to Corpus Christi. I now have the privilege to 
represent from Corpus Christi north to Wharton, which covers 
about probably a third of the route of Interstate 69 that is 
being improved along Texas.
    And I can tell you, since the day I was elected until last 
month, there is probably a public hearing every couple of weeks 
on I-69, and I will tell you that there is no lack of 
opportunity for public input.
    And I really am proud to be here as a Texan as we are 
looking at the Texas model for improvements and efficiencies. 
And I wanted to talk to Mr. Swonke about some of the Texas 
experience.
    It is my understanding that Texas has decided to petition 
the Federal Highway Administration for full NEPA delegation 
like California did under SAFETEA-LU.
    Why did you all decide to do that?
    Mr. Swonke. Well, we have got a couple of incentives to 
move in that direction.
    The first one is that it is really a discussion about 
resources and availability. Across TXDOT, we have about 150 
folks who practice in the environmental area of getting the 
projects environmentally cleared.
    When we talk about our FHWA division office, you are 
talking about five or six or seven environmental folks who are 
in charge of processing these documents.
    So when--you are talking about having the resources to 
carry out the program, to review the program, and oftentimes 
we--you know, we change our priorities with FHWA and the 
discussion goes towards, ``OK. Well, what is the priority you 
want us to review? Because we only have so many folks to put on 
this assignment.''
    Secondly, we think our program is robust. It is mature 
enough to handle this decisionmaking, given the fact that we 
have got, as I mentioned, the folks available and the resources 
available to carry out the program. We have got experienced 
people available as well and----
    Mr. Farenthold. So----
    Mr. Swonke [continuing]. Again, just ability and 
responsibility to do that.
    Mr. Farenthold. So how is the process going?
    Mr. Swonke. So as I mentioned earlier, that--we are 
discussing the MOU, which is the final document that would 
allow us to move forward. And working with our FHWA division 
office in Austin, it has been very productive, and we are 
appreciative of the response we have gotten from them.
    And given the news that we received yesterday on the last 
two points of our MOU, I think that is very positive as well. 
And so today we see it working very well.
    Mr. Farenthold. And so we have also in Texas gone through 
and gotten delegation for categorical exclusions.
    Do you have any improvements that you would recommend for 
the process either for full or categorical exclusion 
delegation? Is there anything we need to do to improve that 
process?
    Mr. Swonke. We feel like going through the process for the 
categorical exclusion delegation was fairly simple. And we got 
there pretty quickly, and we were very happy with the way that 
was set up.
    For the full assignment, I think, given that we moved 
forward fairly well up until the point where we reached 
somewhat of an impasse on those two remaining issues--which, 
again, I think we may be able to move forward on it here 
recently--that has moved fairly smoothly as well.
    The one point on the implementation of the full delegation 
was the steps and public notice of the application. There are 
as many as three steps for public notice of the application, 
and we weren't sure if that was intended or not.
    But in applying for full NEPA assignment, there is a step 
for the State to put out its draft application on public 
notice. And there is--the request from the Federal Highway 
Administration was then, once they received that application, 
that they would put out that application on public notice and 
then, once the MOU was in place, that the MOU would be public 
notice as well.
    Mr. Farenthold. So that is the web designer's full 
employment act. Right?
    Mr. Swonke. Yeah.
    Mr. Farenthold. I assume most of that goes on the Internet.
    Mr. Swonke. Yes. Yep.
    Mr. Farenthold. And one of the issues, I know, in these 
negotiations--and I think you talked about it some--was the 
relationship with the DOJ and the Federal Government.
    Can you talk a little bit about--I don't think under the--
if I am correct--and correct me if I am wrong--under the CE 
delegation, the Federal Government wasn't looking for access to 
your attorney-client-privileged information, and it was 
different under the full--I mean, can you talk a little bit 
about that.
    It seems--I understand the need for the Federal Government 
to be involved in the process, but you still need to be able to 
talk to your attorneys. I mean, you don't want to deal with the 
Federal Government without involving the attorneys at some 
point, I would think.
    Mr. Swonke. Yes. One of the points of contention that I had 
mentioned had to do with the request from the Federal Highway 
Administration about TXDOT turning over client privileged 
information as part of our obligation.
    And so we were a little concerned with that, the idea that 
we would have to be able to turn over attorney-client-
privileged documents that we had, you know, internal 
discussions about decisionmaking in the audit process.
    And, you know, there would be times that that would be, you 
know, I think, OK with us. But just requesting that across the 
board and us being obligated to turn that over any and all the 
time that they asked was a concern.
    It could have a bit of a chilling effect on our ability to 
have our own confidential internal discussions, realizing that 
this could be made, you know, available to the Federal Highway 
Administration and then, once it is disclosed there, where it 
might else would be disclosed.
    And so that was a big concern with us. And so--but, again, 
as I mentioned that--as of just yesterday, I think we have got 
some language in our MOU that addresses the concern on both 
sides.
    And then the other point you mentioned, the DOJ's concern, 
we fully understand that, even when TXDOT receives NEPA 
assignment, that this is still a Federal program.
    And so the idea that decisions made in the Federal program 
could have implications beyond Texas are understandable to us 
and that the Federal Highway Administration's concerns are 
valid, DOJ's concerns are valid, and we want to honor those 
concerns.
    Mr. Farenthold. All right. I see my time has expired. 
Appreciate your being here to testify.
    Mr. Chairman, thank you.
    Mr. Petri. Thank you.
    Representative Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. And I am 
going to preface my questions and remarks by saying I am very 
emotional about your departure. My entire 22 years on this 
committee has been served with you. I have served on a number 
of the subcommittees. And I can't think of anyone that I 
respect more. I appreciate the service you have given. I am 
certain your constituents do. And I will miss you greatly. 
Thank you for being a great role model.
    Now, on to Texas. Nobody handed me any questions to ask, 
and if they did, they know it wouldn't make any difference 
anyway. I am a native, and I have served with every one of 
these pictures on the wall as chairman, and not a single one of 
them has ever given me any trouble trying to represent Texas on 
this committee. And I am serving now with the son of one of 
those pictures up there, and he has not as well.
    But you know I am a native of Texas and I know how 
resistant Texas is to rules. And I am a nurse, and I know about 
the environment, I know about the effects of environment with 
children, old people, and middle-aged people, too. And I am 
concerned about whether TXDOT is really working with Fish and 
Wildlife, the Corps of Engineers, the EPA to try to make sure 
that we are not hiding, we are transparent in following the 
rules.
    We don't have a good track record. Are we improving it?
    Mr. Swonke. Yes, ma'am, I would definitely say that we are 
improving it over the past few years, our relationships with 
EPA and Fish and Wildlife Service and the Corps of Engineers. 
Actually, I would say with the Corps of Engineers and the Fish 
and Wildlife Service, we have established a very good working 
relationship very recently. One of the things we have done with 
the Fish and Wildlife Service and Endangered Species Act issues 
is designate and fund a liaison at that agency, and he now is 
almost an extension of one of our own employees in that he is 
very aware of the issues that go on, and he communicates that 
to the Fish and Wildlife Services offices in our State.
    The Corps of Engineers, I think we have always had a fairly 
good relationship with. We have been open with them, they 
understand our program.
    EPA, it has run hot and cold, honestly. And so there are 
times when we are able to engage EPA and they are able to 
attend a lot of our early scoping meetings and communications, 
and other times when they are not able to, it sometimes leads 
to problems later. So we see that sometimes their limitation of 
resources limits their ability to engage, and then they also 
have the disparity amongst their various offices that get 
involved in our programs. If and when they don't communicate to 
folks within their side, it leads to communication problems 
down the road. But I think even that relationship with EPA is 
getting better as we get to know them and the folks we are 
dealing with over there.
    Ms. Johnson. Sometimes I wonder if Texas understands that 
EPA actually is there to protect people and not necessarily to 
protect agencies. But our EPA in Texas have mostly protected 
industry, not people, and that is my major concern with the 
streamlining. I want to see streamlining, but I also want to 
make sure that we don't ignore the almost 30 million people 
that breathe that air every day in Texas, and that is a major 
concern.
    We cannot compare ourselves to California, who had made an 
effort to try to comply. I haven't seen as much effort in 
Texas, and I think the record speaks for itself. You know, I 
don't want to sit here and tell you all about the various 
complaints, but the record speaks for itself. So I am concerned 
about that, and I am concerned about transparency, and I just 
want you to know that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you.
    Mr. Hanna.
    Mr. Hanna. Thank you. Thank you very much.
    As cochair of the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials, I would just like to remind everyone of 
something that most of us are aware of. Even though the 
railroad projects are largely financed with private money, they 
can still be subject to Federal environmental review. Long 
delays can be burdensome, expensive, ultimately discouraging 
private investment, which we need for our growing economy and 
to grow our economy. So we do put at risk long-term job 
creation that enhances service to our constituencies by 
creating some barriers.
    Ms. Peterson, one of the things we have heard from you in 
your opening statement is that NEPA is not broken. What we have 
heard from Mr. Kraman and Mr. Swonke is that things don't have 
to be broken to have wide opportunities for improvement. So I 
don't find your statement inconsistent with those necessarily, 
I doubt if you do, but clearly there is always room to look and 
improve.
    I want to ask you, Mr. Kraman, you mentioned something that 
I will just use the term mission creep. You talked about 
agencies not minding their own business, to be less than 
polite. Can you give me an example of how that would happen, 
and why it could happen, and if you believe there is some 
philosophical drive behind that? Go ahead.
    Mr. Kraman. The process as designed in the collaborative 
process was to involve all of the agencies, because they each 
do have slightly different agendas, if you will, as they 
approach these complex projects, the Federal Highway 
Administration being the lead on our particular project.
    Once we got through that process and had unanimous 
agreement on the preferred alternative, the wheels came off 
pretty quickly after there were challenges to the project, and 
the way that took place was around agency issues. For example, 
EPA or the Corps of Engineers, while we had a very robust 
public outreach process for the constituents that live around 
the project, there is the whole level of professional 
organizations that work with EPA on their agenda or work with 
the Corps of Engineers on their agenda. So it very quickly 
unravels despite a 10-year process of collaboration.
    Mr. Hanna. So what you are suggesting is that there is a 
war of attrition that can be fought from a number of different 
angles that ultimately--go ahead.
    Mr. Kraman. And I think the biggest weapon that is used is 
to delay. So it is not necessarily that easy to stop a project, 
but in the current process it is very easy to delay a project. 
And I think the major weapon we see is to use each of the 
agencies in the slightly different way they would each look at 
that in order to throw in delays to the process.
    Mr. Hanna. So that you welcome the input, but it is hard to 
bring to conclusion because of all these other dynamics.
    Mr. Kraman. Right. And perhaps what is lacking is a more 
robust appeal process, if you will, or some sort of an 
administrative process to raise the level of disputes in order 
to keep the projects moving forward.
    Mr. Hanna. So how would you suggest you cap input? Ms. 
Peterson is suggesting it is a wonderful thing. We all agree 
that it is part of the process, you need it. But how do you end 
something like that?
    Mr. Kraman. We agree that it is an important part of the 
process and the process allows for that input. However, having 
followed the procedures outlined in the process, we need to 
move ahead.
    Mr. Hanna. So you had a 16-mile agreement. That didn't work 
out. You went to a 5.5-mile agreement, and you thought that 
was--because everybody had already signed out, and then they 
jumped back in because ultimately what they are really saying 
is, we don't want this to happen.
    Mr. Kraman. Correct.
    Mr. Hanna. And you think we could find a way around that?
    Mr. Kraman. Yes. It depends on who it is we are talking 
about when say they, we don't want this to happen. Certainly 
the people of Orange County and the people who are sitting on 
the 5 freeway in San Clemente and San Juan Capistrano, where we 
are spewing all sorts of air pollution into the air while they 
sit there, would rather have a free-flowing alternative route 
where our vehicle hours traveled decreases, and where as a 
transportation control measure, it supports the air quality 
conformity for the entire L.A. Basin, we want to be able to 
move towards that as opposed to having people stuck in traffic, 
because we have an alternative. By the way, the main thing that 
typically stops a project is they can't fund them. We are 
paying for this project without using taxpayer dollars to build 
this facility.
    Mr. Hanna. So you would like to see these agencies have 
this input. I don't know how to end this, because this is 
bureaucratic, it is the way bureaucracies go.
    But then my times has expired. Thank you very much.
    Mr. Petri. All right. Let's see. We have Mr. Rice.
    Mr. Rice. Thank you, Mr. Chairman.
    Mr. Kraman, Mrs. Peterson earlier said that NEPA is not 
broken. With respect to your toll road projects, how much time 
have you spent trying to get this final part permitted?
    Mr. Kraman. Close to 20 years.
    Mr. Rice. Do you think NEPA is broken?
    Mr. Kraman. I think NEPA is a process that can lead to a 
solution. I think there are components of it, particularly when 
it involves the coordination between the other agencies not 
being the lead agency, that can easily delay a project. I think 
the element of delay, which leads to more costly projects, 
which leads to that benefit not being available to the users 
and the benefiters of that project, I think that part of it is 
broken.
    Mr. Rice. All right. Would you agree with me that 
transportation and infrastructure are important to our economy 
and jobs?
    Mr. Kraman. Yes, sir, I would.
    Mr. Rice. Do you think that delaying critical 
transportation and infrastructure projects helps America's 
competitiveness in the world?
    Mr. Kraman. It does not.
    Mr. Rice. And do you think that that results in jobs going 
overseas?
    Mr. Kraman. Well, certainly out of certain States to other 
States, and I would agree overseas as well.
    Mr. Rice. Thank you, sir.
    Mr. Swonke, with respect to Texas, so does NEPA or MAP-21 
specifically allow for States to be delegated this authority to 
oversee the NEPA process?
    Mr. Swonke. Yes, it does.
    Mr. Rice. How many other States have been granted this 
authority?
    Mr. Swonke. California has been working under this 
authority for the full assignment, that includes EISs, 
environmental impact statements, and environmental assessments, 
for I think going on 7 years.
    Mr. Rice. So they received the delegation or they are 
trying to get the delegation?
    Mr. Swonke. They received it just over 7 years ago, and 
they have been working under that authority for that time.
    Mr. Rice. How long has Texas been trying to get that 
delegation?
    Mr. Swonke. Oh, about a year, just about a year when we 
decided, we got the State legislation passed and moved forward 
spring of last year.
    Mr. Rice. How many other States have gotten it?
    Mr. Swonke. And then for the limited assignment that is 
just for categorical exclusions, there is Utah and Alaska who 
have been operating under that authority for some time.
    Mr. Rice. Do you know of any other States that are trying 
to get it?
    Mr. Swonke. I have talked to some of my peers, and they are 
interested. I don't know that they are actively today pursuing 
it, but they are interested and somewhat preparing for it.
    Mr. Rice. Mr. Kraman, do you know how much money has been 
spent on complying with the NEPA process with respect to the, 
what did you call it, TCA project?
    Mr. Kraman. I don't have that number. I can get that for 
you.
    Mr. Rice. Mr. Swonke, do you all have any breakdown on 
that, on what it costs? You said earlier that--I am trying to 
remember the exact phraseology--but I am trying to get from the 
Federal Government a breakdown on a project that doesn't get a 
categorical exclusion, what the percentage cost of complying 
with the NEPA process was versus the cost of actually putting 
pavement on the dirt.
    How much money are we spending of our very limited 
resources, when we don't even have enough money to take care of 
what we have already got, much less build any roads? How much 
money of that are we diverting to this NEPA process and not 
putting pavement on the ground?
    Mr. Swonke. Of course, I don't have those numbers 
available, and it would be very project specific. But we could 
come back with some examples, I am sure.
    Mr. Rice. OK. You could come back with what you are 
spending, but you can't tell me what the EPA is spending and 
what all these other--the Federal Highway Administration and 
all these other various--the Army Corps of Engineers--you can't 
tell me what they are spending, right?
    Mr. Swonke. Correct. I wouldn't be able to.
    Mr. Rice. Do you think it would be helpful if we required 
some breakdown on a cross-agency basis so we could at least 
understand how much, in addition to the time and the lost 
productivity and all, the lost benefits, delay of benefits, do 
you think it would be helpful to know what it has cost us in 
hard dollars across all these agencies?
    Mr. Swonke. Yes, sir. I think cost-benefit is always 
helpful.
    Mr. Rice. Can you, I know I am putting you on the spot with 
this, because I don't know that I could even come close, but 
can you give me any kind of an approximate breakdown, 10 
percent, 20 percent? You can't do that, can you?
    Mr. Swonke. No, sir, I can't, off the top of my head.
    Mr. Rice. All right.
    Mr. Braceras, do you think that NEPA process is broken?
    Mr. Braceras. Mr. Congressman, I do not believe the process 
is broken. I think there are improvements that we could make in 
the administration of the process. The process is actually very 
good and can yield excellent outcomes if people come to the 
table with a willingness to have honest, open discussions and 
they reach a point at which they are willing to make a 
decision. And I believe the process works if it is administered 
appropriately. But that really comes down to people.
    Mr. Rice. You know, I want to thank every one of you for 
being here. And I have the utmost respect for every single one 
of you. And thank you for your work and thank you for trying to 
help your individual States and push these projects through.
    I think when it takes 20 years to get a much-needed road in 
California, 24 million people in southern California moved 
around, when it takes 10 years to get a permit for a road we 
have been working on in South Carolina, I-73, I think the 
process is horribly broken, I think it costs millions of jobs, 
and I think it affects American competitiveness, and we can do 
much, much better. Thank you very much.
    Mr. Petri. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I think the summary of the testimony is the expansion of 
the CEs, which I have advocated for, for a number of years, has 
worked quite well in Texas and Washington and elsewhere. We do 
have before us an issue, which actually when I chaired the 
subcommittee, was the subject of a hearing, which is the 
unbelievably controversial SR 241 road to the coast. I have 
just got a couple of questions on that, Mr. Kraman. Do you want 
the Federal Government to preempt your State's laws, yes or no?
    Mr. Kraman. No.
    Mr. DeFazio. OK. So it is my understanding that actually 
this road was the most controversial issue ever heard by the 
Coastal Commission, they had more comments than on anything or 
perhaps all their other proposals in history, and yet you are 
proposing--and that is what brought it to a halt--but you are 
proposing changes to Federal law, giving a long litany of 
interactions with the Federal Government, for something that 
was ultimately blocked by the State. Isn't that correct?
    Mr. Kraman. Well, what I testified----
    Mr. DeFazio. Well, I mean, isn't that true? At this point, 
you are blocked by the State.
    Mr. Kraman. What I testified today to is how we have 
reevaluated the project and the difficulties we are having with 
a 5.5-mile project, which doesn't impact the coastal zone.
    Mr. DeFazio. OK. But generally the lengthy litany of things 
that we are talking about here and the changes you want relate 
mostly to the problems you have had with 241, which relate to 
the State California Coastal Commission, which of course is not 
the jurisdiction of this committee, and you haven't recommended 
that it should be, so I appreciate that.
    Ms. Peterson, let's go back to people who are a little more 
successful in working through the process. You know, we have 
talked before about appropriate design. I mean, if one has 
appropriate design and adequate public input, do you see the 
need for further streamlining beyond what we have already 
delegated through the last, whatever they called it, MAP-21?
    Ms. Peterson. Chairman and Congressman, the specifics on 
streamlining, I think we have had great success in Washington 
State on continuous improvement on streamlining and permitting, 
so I would hesitate to say no, we don't ever need to continue 
moving forward on streamlining. I think there are always ways 
in which we can improve the process, but public participation 
would not be one that I would want to streamline out.
    Mr. DeFazio. Well, the most notable failure in the 
Northwest, of course, is the Columbia River Crossing, which 
didn't have anything to do with a failure brought about by 
Federal agencies.
    Ms. Peterson. No. That was a project for the committee that 
went through extensive environmental impact statement, had a 
record of decision, and then due to the fact that the 
Washington State Legislature considered but did not move on a 
transportation package to fund projects across the State, that 
is not moving forward at this time.
    Mr. DeFazio. So we had proposed and went through and were 
able to work with the various Federal stakeholders before the 
streamlining process and get approval to go ahead from the 
Feds, but it was a failure of the region, much like 241 in 
California is a failure because of California State law.
    Ms. Peterson. It was certainly a long process to get to a 
conclusion. And having been somebody who worked on both sides 
of the river----
    Mr. DeFazio. Both sides of the border.
    Ms. Peterson [continuing]. On this project, and also as a 
person who was----
    Mr. DeFazio. I am not trying put you on the spot here.
    Ms. Peterson. No.
    Mr. DeFazio. I am just making an observation. You can just 
say yes.
    Ms. Peterson. As somebody who just has a perspective from 
inside and outside, the process worked.
    Mr. DeFazio. OK. But you do say at the end, 
``subcommittee's support encouraging Federal resource and 
regulatory agencies.'' You list ``examine their review 
processes, look for ways to expedite programmatic agreements.'' 
Could you expand on that, because I don't know what that means.
    Ms. Peterson. Where are you?
    Mr. DeFazio. At the end of your testimony.
    Ms. Peterson. OK. Could you read it?
    Mr. DeFazio. It says, ``We seek the subcommittee's support 
in encouraging Federal resource and regulatory agencies (Fish 
and Wildlife, NMFS, Corps) to examine their review processes 
and look for ways to expedite programmatic agreements.''
    What is the problem we are trying to get at there? There is 
a problem you are pointing to.
    Ms. Peterson. That is to reduce the time that it takes for 
the review.
    Mr. DeFazio. OK. So it is a lack of coordination still 
among the agencies?
    Ms. Peterson. I think that we have done a good job at 
Washington State doing that for our folks that we work with, 
reducing from 90-day review to 3 days. We would essentially say 
that should happen across the country.
    Mr. DeFazio. So the Feds aren't able, even with the CE 
process, to meet the kind of expedited process that you can put 
forward?
    Ms. Peterson. I think we should be used as the best 
practices.
    Mr. DeFazio. Yes. OK. So they need direction, or what 
changes do you----
    Ms. Peterson. I think many of our programmatic MOU's and 
MOE's should be looked at in terms of how they could be used in 
other States.
    Mr. DeFazio. OK. All right. Well, we need to follow up on 
that, because I am looking to whatever we can do for continuing 
problems. I have struggled with this lead agency, agencies 
wandering in later and saying, gee, wait a minute, oh, we 
should have been here and we haven't been and now we have a 
concern at the end. I mean, there has got to be----
    Ms. Peterson. Correct.
    Mr. DeFazio. And it seems like there are still some 
vestiges of that problem.
    Ms. Peterson. Yes.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    And, Mr. Braceras, you mentioned in your testimony that the 
Interstate 15 construction project in Utah was completed in an 
unprecedented 35 months, making it the fastest billion-dollar 
project ever built. Maybe you have testified about this, but I 
have had to be in and out. Would you tell me a little bit more 
about how you did this, and are there lessons that you learned 
that could be helpful to other States?
    Mr. Braceras. Thank you, Congressman, for the question. The 
timeframe that we referred to in the project was in relation to 
the fact that Utah DOT has been very progressive in 
streamlining project delivery. The environmental process and 
approval preceded the 35 months to construct the project.
    Now, the environmental document, I believe, was unique in 
the sense that when we began the document we began it as a 
multimodal document and we carried forward into the draft EIS 
as both a transit component and a highway component. But as was 
testified earlier, one of the improvements that could be made 
as we move forward is to be able to complete a decision on both 
modes of transportation within the same document.
    What happens, and it is what happened to us on the I-15 
project in Salt Lake County in 1995 where both the light rail 
solution and a highway solution came out of the environmental 
process, is when we get to the draft EIS you have to split the 
documents apart because there are different formatting 
requirements required from Federal Transit Administration 
versus Federal Highway Administration.
    So that does not really, I believe, send the right message. 
Our agencies want to be truly multimodal, and so you would have 
to split the documents apart. That is an inefficiency. But in 
terms of the timeframe mentioned in my testimony, it was in 
reference of supporting the fact that we are doing everything 
within our powers to try to move projects forward quickly.
    That was a design-build project. Utah is the first DOT in 
the country to utilize design-build back in the 1990s. We 
continue to use it probably more so than most States. That 
process allowed us to achieve incredible outcomes for the 
public at a very, very short timeframe with very little impacts 
to the traveling public. We kept all the traffic lanes open 
during construction when we did it. That total project was a 
$1.725 billion project in terms of program costs.
    Mr. Duncan. Well, thank you very much. I have not been here 
as long as Chairman Petri, but this is my 26th year on this 
committee. And I chaired the Subcommittee on Aviation for 6 
years and the Subcommittee on Water Resources and Environment 
for 6 years and for 2 years this subcommittee when we were 
writing MAP-21. And all through all those years we would hear 
all these officials come on all the different types of 
projects, aviation projects, water projects, highway projects, 
and they would tell us it was taking three times as long on 
average as any other developed nation to do these different 
projects, and of course that made it three or four times as 
much in cost. And so we have tried real hard, we tried real 
hard in MAP-21 to put in these environmental streamlining 
provisions and do more than just lip service.
    I was pleased, Mr. Swonke, to hear some of the examples you 
gave. You talked about the thousand projects, that you saved 82 
years of accumulated waiting time. I mean, it is not just in 
Texas. It is all over the country that these delays were taken.
    And, Secretary Peterson, I noticed in your testimony you 
said that programmatic negotiations have received very low 
priority in the Federal agencies' workload. You started to get 
into this just a minute ago, and I was interested. You said you 
could cut 90 days down to 3 days. Would you tell me a little 
bit more specifically what you were talking about or how you 
were able to do that?
    Ms. Peterson. In general terms, basically between the 
different agencies that play a role around how we do different 
things, like stormwater management, which is a very, very 
important issue within the Puget Sound area of Washington 
State----
    Mr. Duncan. It is all over.
    Ms. Peterson [continuing]. In certain projects we have, 
which is the majority, we have reduced the time from 90 days to 
3 days for complete review of those projects, because we have 
agreed that if it is a project of such and such type, then this 
is the type of solution and the type of work that we will do in 
response.
    Mr. Duncan. Well, my time is up, but I do want to say, Mr. 
Swonke, I appreciate your example on the right-of-way, the use 
of the right-of-way provisions that we had in MAP-21, because 
in this one where you say that you would have had to spend 
$100,000 on a very unnecessary environmental assessment. So 
thank you very much for the work you are doing in that regard.
    Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to the 
panelists.
    I am from Illinois, and obviously I think when you look at 
this committee, we want to work together. And the T&I Committee 
is an example of bipartisanship when it comes to making reforms 
that are going to actually lead to more infrastructure 
investment and making those Federal dollars that we are able to 
spend go further. And that was the goal in MAP-21.
    I wasn't here nearly as long as Jimmy Duncan. Heck, I have 
only been here a year and a half. So my experience is listening 
to you tell us how those changes in the policies that the 
people that have served here longer than I have and how they 
are actually being implemented.
    And, Mr. Kraman, you mentioned something earlier about a 
robust appeal process, and that got me thinking, because when 
you get to me on freshman row here, most of the questions are 
asked, so I want to turn it back over to you. You have seen 
some of the policy changes that we have made. If you look at 
WRRDA, another example of bipartisanship coming out of this 
committee, I was excited as a freshman to even be able to serve 
on that conference committee, but changing policies in WRRDA is 
projected to reduce what I call the paperwork process that the 
Corps of Engineers uses, which is design engineering, and we 
all know, and the environmental reviews and the different 
studies, is projected to change it from an average of 15 years 
right now to 3 years. Which I think we all agree that saves 
taxpayers billions, because you are getting to the 
infrastructure investment sooner and you are not spending 
precious Federal dollars on studies that can be run 
concurrently.
    So looking now at MAP-21 and what has been done, can each 
of you tell me a recommendation you would have, a policy change 
that could make the process even better as we move into this 
discussion on a complete reauthorization for highways and 
transit. So we will start with you, Mr. Kraman, because you did 
mention the robust appeal process.
    Mr. Kraman. OK. Well, the first suggestion I would have is 
that it needs to be a single NEPA process that we go through 
that includes the development of the environmental document and 
is then utilized in the Federal permits that are needed for 
each project. So often we get through a NEPA document, and yet 
when we get into the permitting process, like, for example, a 
biological opinion from Fish and Wildlife Service, that really 
grinds over old ground again and eats up a lot of time in the 
process despite the 135-day regulated timeframe that they have 
to act within.
    I think the appeal process is important, but I would 
preface it by saying, if each of the agencies were confined to 
their area of expertise as opposed to drifting all over the 
map, it may be less necessary, but certainly the lead agency, 
which for our project would be the Federal Highway 
Administration, when we get disagreements from other agencies, 
whether it would be the Corps of Engineers or EPA, there should 
be an appeal process that is within the confines of that lead 
agency who has the expertise in the type of facility we are 
looking at.
    It gets gray. I mean, EPA obviously is very interested in 
air quality, which is related to traffic, but the Federal 
Highway Administration is the expert on traffic. So having the 
ability when there is a dispute over traffic that we could 
appeal through the Federal Highway Administration in order to 
get to resolution.
    All of my suggestions are related to putting more of a 
timeframe to the process. We do have a great process, public 
input being the best part of that process, but we get bogged 
down in the time. And from our perspective, a lot of the time 
that gets eaten up and added to the process are the different 
Federal agencies weighing in from a different point of view 
where they would not normally be the lead agency.
    Mr. Davis. OK. And that would be your number one priority 
in changing some policies, right, in the future?
    Mr. Kraman. Yes.
    Mr. Davis. OK. I don't have lot of time left, so if you 
could just tell me what your number one policy change would be 
to make the process even better, that would be great. Go ahead, 
Mr. Swonke.
    Mr. Swonke. Yeah. Very quickly. I think it goes back to 
what I mentioned earlier about the allowance to combine the 
planning decisions in the NEPA process. It is conditional now. 
It should be more flexible to bring in more decisionmaking from 
the planning process into the NEPA process.
    Mr. Davis. Thank you.
    Ms. Peterson.
    Ms. Peterson. Preplanning is essential and bringing 
everybody to the table. But the one thing that needs to be 
changed is the ability for modal administrations at USDOT to 
accept environmental documents approved by other USDOT modal 
administrations.
    The one thing I would be remiss in not stating is Governor 
Inslee, Washington Governor Inslee, serves on the Presidential 
task force for climate change, and they are looking at 
recommendations for climate and GHG guidance within the next 
reauthorization and work on NEPA. So what should we be doing as 
States? And that is probably a longer conversation that will 
need to be had, but how does that apply to planning and 
projects?
    Mr. Davis. OK.
    Mr. Braceras. Yes. I think we all agree that we want better 
outcomes for the public's investment, both from the 
environmental, the community, and the transportation 
perspective. I think that one of the things we can continue to 
do is continue down the path of an outcome-based performance 
management process for all of our processes that we do within 
the administration of the Federal Highway Program and the NEPA 
process as well.
    We really need to increase the transparency and the 
accountability of how these decisions are being made. Too many 
times I see things hiding behind the term of predecisional. It 
is difficult for the public to know what is going on behind the 
screen, as well as it is difficult maybe for the project 
sponsor.
    Mr. Davis. Thank you, each of you.
    Mr. Petri. Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman. Also, thank you for 
your leadership. Appreciate you.
    I want to thank all of you for being here today. And, Mr. 
Swonke, thank you for being here. Thank you for your leadership 
in working through some difficult times.
    I am a business guy. My district goes through Texas, goes 
from Fort Worth through Austin, a lot of highways, a lot of 
action going on. And I wish that the Federal Government would 
treat the States more like customers rather than adversaries.
    The first question to you is, as we hold this hearing, 
examining the impact of environmental reviews on transportation 
projects, the House Natural Resources Committee is meeting as 
we speak to mark up legislation on the Endangered Species Act. 
Would you tell us how the Endangered Species Act and its 
requirements impact transportation projects?
    Mr. Swonke. Certainly. I think we have got quite a few 
listed species in the State of Texas that we deal with when it 
comes to transportation projects, and we often run into the 
impacts of these species and have to go through Fish and 
Wildlife Service for the ability to move forward on these 
projects. And so on a case-by-case basis when we run into the 
problem of a listed endangered species. Right now we are 
working on a project in south Texas that has to do with the 
endangered ocelot and the idea that that ocelot is being hit by 
passing cars crossing the roadway and what kind of a mitigation 
we can do. And we have been having discussions on this issue 
for over a year now. And certainly something needs to be done, 
we are moving forward with some mitigation options, but it is 
just the course of the discussions having been in place for 
well over a year.
    We have got instances of that around the State, that you 
enter into this coordination process, and we have to follow 
that path to completion. As I mentioned earlier, we are getting 
better at that with the liaison we are working with. I know 
other States probably have a similar success story with working 
with the Fish and Wildlife Service liaison on this, and we have 
seen similar improvements in that process.
    Mr. Williams. Thank you. My second question would be to 
explain how regulations beyond NEPA, like the Clean Air Act, 
Clean Water Act, National Historic Preservation Act, and so 
forth, are impacting transportation projects. And do you have 
any recommendations on how to streamline the approval process 
under these laws?
    Mr. Swonke. Starting with the Clean Air Act, there are a 
number of aspects of the Clean Air Act that affect our work. 
And without being able to go into the details right now, that I 
think one of the top ones is the idea of regional conformity 
and how and when that applies, and then also the effectiveness 
of regional conformity, are we seeing real improvements in air 
quality when it comes to the compliance with regional 
conformity. Also compare that to the improvements in air 
quality you are talking about when you are talking about 
cleaner fuels, more efficient engines, and things like that. 
And so what is the relative improvements that we are getting 
out of conformity. And then there are upcoming Clean Air Act 
rulemaking that we are expecting, and those could have some 
pretty big implications on our work as well.
    The second regulatory issue is the section 404 of the Clean 
Water Act and working with the Corps of Engineers on that. The 
working relationship is fine, but it is just the steps 
necessary for compliance and the time taken for discussions 
regarding alternatives, which we usually address in the NEPA 
process and going all the way through mitigation, which is an 
iterative process as well and can take 2, 3, 4 years to get 
through an individual permit, for a 404 permit.
    Mr. Williams. Well, thank you for what you are doing. You 
have got a great team down there. I enjoy working with you. And 
you would agree with me when I said, God bless Texas, wouldn't 
you?
    Mr. Swonke. Yes, sir.
    Mr. Williams. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mayor Barletta.
    Mr. Barletta. Thank you. Looks like I am the last man 
standing here today. I would like to congratulate the chairman 
on his retirement and thank you for your service and great 
work.
    Many of the streamlining reforms in MAP-21 were optional, 
and you as State officials have the choice to take on new 
environmental authorities. I am going to ask all of to touch on 
this. Are there any optional MAP-21 reforms that as a State you 
are choosing not to use, and if so, why not?
    Mr. Braceras. There are none that we are choosing not to 
use. Some of them are taking a little bit to progress through 
our State legislative process, honestly. As was mentioned 
earlier, we have had a delegation for categorical exclusions 
for quite some time. It has been very successful.
    We made a conscious decision at that time to work with the 
State legislature to waive sovereign immunity. It sounds scary. 
In fact, it is not. At the end of day it won't result in any 
change in the way we operate, so we only went forward with the 
CATEX. So now we are trying to obtain sponsors and work with 
our legislature to get the full delegation authority for EAs 
and EISs as well.
    So we applaud the Congress for providing flexibility to the 
States, but also holding us accountable for administering and 
adhering to the laws of this country. So I believe application 
and decisionmaking closest to the customer usually yields the 
best results.
    Mr. Barletta. Ms. Peterson.
    Ms. Peterson. The portion that we are not pursuing, the 
only portion we are not pursuing is complete delegation, while 
other States may want to do that. We find that FTA and FHWA as 
partners at the table with us is the most appropriate way for 
us to move forward. And we also have worked with our attorney 
general's office on the cost and benefits of taking on that 
risk and liability. So we choose to prefer to go the 
programmatic categorical exclusion way, but not pursue full 
delegation.
    Mr. Barletta. Mr. Swonke.
    Mr. Swonke. Yes. I don't think there are any that we are 
choosing not to pursue, although the conditional requirements 
for the combining of planning and NEPA documents is something 
that we can move forward with the planning document and get 
some NEPA-like decisions out of that planning document before 
we get the NEPA document to where we don't use the MAP-21 
provision because of the conditions, but we try to achieve the 
same effect going somewhat around that and getting some early 
decisionmaking.
    So it is not that we don't choose to use it, it is just 
that it is not as applicable as we would like for it to be. 
Thank you.
    Mr. Barletta. Mr. Kraman.
    Mr. Kraman. Well, certainly as a local agency I can't speak 
for the State, but already having the pleasure of delegation, 
the staffing levels for that and keeping up with the workload 
is something that is very important within the State, and we 
look forward to continuing improvements in each version of the 
bill, as it helps us work through this process.
    Mr. Barletta. Mr. Kraman, when I read that the Fish and 
Wildlife Service took eight times longer than the deadline in 
the Endangered Species Act, I couldn't help but remember my 
days as mayor. I was running for office in 1999, and the main 
street in downtown Hazleton was getting a total reconstruction, 
and I thought how lucky was I. You know, I am running for 
office, I am going to get elected mayor and people are going to 
think that I actually had something to do with this new 
downtown.
    Well, I won one term and served, I won my second term and 
served, I won my third term, and the project still wasn't done. 
Because of the delays, that $10 million project ended up being 
a $26 million project and the scope of the project was 
drastically cut down because of all those delays.
    We all know that we need to be investing in infrastructure 
now. As we delay projects, whether it is due to insufficient 
funds or burdensome studies and reviews, the project becomes 
more expensive. Can you tell me about the cost overruns of your 
project?
    Mr. Kraman. The construction costs that we are looking at 
now after this is probably $700 million to $1.4 billion higher 
in order to finish a 16-mile project.
    Mr. Barletta. Again, I want to thank you all for what you 
do. It is not easy work, right? I certainly appreciate it. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Before we wrap things up, I just thought I would ask Mr. 
Braceras, who is here also as chair of the National Center for 
Environmental Excellence, if there is anything that you had to 
add to the discussion that we haven't discussed at this point?
    Mr. Braceras. Mr. Chairman, I appreciate the question. 
Nothing specific comes to mind. The AASHTO Center is very 
focused on trying to help States and other partners just do a 
better job in the NEPA process. That is the complete focus that 
we have. I know we have seen the benefits of the center, and we 
appreciate the Federal Highway Administration being a partner 
in helping fund that center.
    Mr. Petri. Thank you. Thank all for your testimony.
    I would like to ask unanimous consent the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing. And without objection, I guess we can proceed.
    If no other Member has anything to add, this subcommittee 
stands adjourned.
    [Whereupon, at 11:46 p.m., the subcommittee was adjourned.]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
</pre></body></html>
